TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                           Processing of Foreign Currency
                             Check Payments Is Causing
                           Unnecessary Taxpayer Burden



                                          March 22, 2013

                              Reference Number: 2013-30-027




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                   HIGHLIGHTS


PROCESSING OF FOREIGN CURRENCY                           Collection notices were not always
CHECK PAYMENTS IS CAUSING                                 suspended after taxpayers submitted
UNNECESSARY TAXPAYER BURDEN                               payments to fully satisfy outstanding
                                                          liabilities.
                                                      
Highlights                                                Procedures were inadequate for monitoring
                                                          whether taxpayer payments were timely
                                                          processed and credited to their accounts.
Final Report issued on March 22, 2013
                                                         Procedures did not exist to verify the
Highlights of Reference Number: 2013-30-027               accuracy of bank processing fees charged
to the Internal Revenue Service Commissioner              to the IRS.
for the Wage and Investment Division.
                                                      As a result of the internal control issues, there is
IMPACT ON TAXPAYERS                                   increased risk that taxpayer payments and
                                                      information could be lost, stolen, or misused;
The IRS requires taxpayers to pay their United        taxpayers could be unnecessarily burdened; and
States (U.S.) taxes in U.S. dollars. However,         the Federal Government could be charged with
some taxpayers still send foreign currency            excessive or incorrect check conversion fees.
payments because they are either unable or
unwilling to convert their payments to                WHAT TIGTA RECOMMENDED
U.S. dollars. Foreign currency payments that
                                                      TIGTA recommended that the Director,
are not processed timely or are processed at
                                                      Submission Processing, Wage and Investment
lower exchange rates can cause undue burden
                                                      Division: 1) require employees to retain source
on taxpayers and additional work for the IRS.
                                                      documentation and create and maintain
WHY TIGTA DID THE AUDIT                               documentation of the corrective actions taken on
                                                      rejected payments; 2) ensure that no collection
This audit is included in our Fiscal Year 2013        notices are issued to taxpayers while their
Annual Audit Plan and addresses the major             foreign currency check payments are being
management challenge of Globalization. The            processed; 3) assess the benefits of initiating
overall objective of the review was to determine      follow-up actions sooner to address contractor
whether the IRS effectively and efficiently           processing delays; 4) provide taxpayers with
processes taxpayer payments made in foreign           additional information on determining foreign
currencies.                                           currency exchange rates; and 5) explore the
                                                      feasibility of establishing a process to verify
WHAT TIGTA FOUND
                                                      foreign currency check processing charges.
Our testing of 393 checks totaling $1.4 million
                                                      In their response to the report, IRS officials
submitted in a foreign currency identified the
                                                      agreed with all the recommendations and stated
following internal control issues that adversely
                                                      that they have taken or plan to take corrective
affected the processing of the payments:
                                                      actions.
   Procedures did not exist for the type of
    documentation to maintain for taxpayer
    receipts and other information collected and
    processed by the Manual Deposit Unit in the
    five Submission Processing Centers.
   Procedures did not exist to ensure that
    taxpayers were provided with accurate
    foreign currency exchange rate information
    when submitting checks in a foreign
    currency.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           March 22, 2013



 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Processing of Foreign Currency Check Payments
                             Is Causing Unnecessary Taxpayer Burden (Audit # 201130047)

 This report presents the results of our review to determine whether the Internal Revenue Service
 effectively and efficiently processes taxpayer payments made in foreign currencies. This review
 is included in our Fiscal Year 2013 Annual Audit Plan and addresses the major management
 challenge of Globalization.
 Management’s complete response to the draft report is included as Appendix VIII.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. If you have any questions, please contact me or Carl Aley, Acting
 Assistant Inspector General for Audit (Compliance and Enforcement Operations).
                                   Processing of Foreign Currency Check Payments
                                      Is Causing Unnecessary Taxpayer Burden




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Controls Need to Be Strengthened Over Foreign
          Currency Check Payments ............................................................................ Page 4
                    Recommendations 1 and 2: .............................................. Page 10

                    Recommendations 3 and 4: ....................................................... Page 11

          The Internal Revenue Service Does Not Verify Foreign
          Check Processing Charges ............................................................................ Page 11
                    Recommendation 5:........................................................ Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 14
          Appendix II – Major Contributors to This Report ........................................ Page 18
          Appendix III – Report Distribution List ....................................................... Page 19
          Appendix IV – Outcome Measures............................................................... Page 20
          Appendix V – Submission Processing Centers’ Payment
          Documentation Retention Results................................................................. Page 26
          Appendix VI – Example of a Billing Statement From Citibank for
          Monthly Foreign Check Processing Charges................................................ Page 27
          Appendix VII – Glossary of Terms .............................................................. Page 28
          Appendix VIII – Management’s Response to the Draft Report ................... Page 30
         Processing of Foreign Currency Check Payments
            Is Causing Unnecessary Taxpayer Burden




                 Abbreviations

CY         Calendar Year
FMS        Financial Management Services
IDRS       Integrated Data Retrieval System
IRM        Internal Revenue Manual
IRS        Internal Revenue Service
OTCnet     Over the Counter Channel Application Network
SPC        Submission Processing Center
TIN        Taxpayer Identification Number
U.S.       United States
                               Processing of Foreign Currency Check Payments
                                  Is Causing Unnecessary Taxpayer Burden




                                              Background

According to Internal Revenue Service (IRS) Publication 54, Tax Guide for U.S. Citizens and
Resident Aliens Abroad, taxpayers must pay their taxes in their functional currency. The United
States (U.S.) dollar is the functional currency for all taxpayers paying U.S. Federal income taxes.
However, there are still some taxpayers who will send in a foreign currency payment because
they are either unable or unwilling to convert their payment to U.S. dollars, even though the
publication clearly states that income taxes should be paid in U.S. dollars.
The IRS receives foreign currency check payments into its Submission Processing Centers (SPC)
through various sources, such as directly from taxpayers, lockboxes,1 field offices, and Accounts
Management Centers.2 The SPCs are responsible for processing all foreign currency check
payments. Currently, the IRS has SPCs located in Fresno, California; Covington, Kentucky;3
Kansas City, Missouri; Austin, Texas; and Ogden, Utah.
The Internal Revenue Manual (IRM)4 requires the SPCs to process foreign currency check
payments using regular manual processing procedures. These payments are generally received
with some type of source documentation, such as a payment voucher or a taxpayer’s tax return.
The Manual Deposit Unit ensures that the source documentation is annotated with the original
received date, processes the foreign currency payment using manual processing procedures, and
prepares a bank deposit ticket through the Over the Counter Channel Application Network
(OTCnet) system.
IRS employees are instructed to look for and correct IRS-caused errors before sending any
payments to Citibank.5 When a taxpayer-caused error is discovered, the IRS employee is
required to return the original check to the taxpayer and request a new one. Once a foreign
currency check is determined to be error free, the IRS employee will then forward it to Citibank
for conversion to U.S. dollars. However, foreign currency checks are still rejected by Citibank
for various IRS- or taxpayer-caused errors.
During Calendar Year (CY) 2010, the IRS processed a total of 10,337 foreign check payments.6
This consisted of 9,476 (92 percent) check payments drawn on a foreign bank in U.S. dollars,

1
  See Appendix VII for a glossary of terms.
2
  The IRS’s Accounts Management Centers are located in Chamblee, Georgia; Andover, Massachusetts;
Holtsville, New York; Philadelphia, Pennsylvania; and Memphis, Tennessee.
3
  The SPC located in Covington, Kentucky, is known as the Cincinnati SPC.
4
  IRM 3.8.45.1.10 (Jan. 1, 2011).
5
  Citibank is the current financial institution that has a contract with the Federal Government for converting foreign
currency check payments into U.S. dollars.
6
  The Atlanta SPC located in Chamblee, Georgia, was in the process of closing down its submission processing
function during CY 2010. As such, we did not include the Atlanta SPC in any of our SPC analyses or population
totals.
                                                                                                               Page 1
                                Processing of Foreign Currency Check Payments
                                   Is Causing Unnecessary Taxpayer Burden



and 861 (8 percent) check payments made in a foreign currency. Of the 9,476 check payments
made in U.S. dollars, 9,273 (98 percent) were deposited by Citibank, resulting in more than
$125 million in revenue collected, and 203 (2 percent) were rejected by Citibank. Of the
861 check payments made in a foreign currency, 793 (92 percent) were converted by Citibank,
resulting in more than $2.26 million in revenue collected, and 68 (8 percent) were rejected by
Citibank. Our review was limited to the 861 check payments made in a foreign currency
processed during CY 2010. Figure 1 shows the number of IRS-processed foreign currency check
payments by the SPCs during CYs 2008 through 2011.
                    Figure 1: Number of Foreign Currency Check Payments
                    Processed by the SPCs During CYs 2008 Through 2011




Source: IRS data obtained from the OTCnet system.

This review was performed at the Wage and Investment Division Headquarters in Atlanta,
Georgia, and in the SPCs located in Fresno, California; Covington, Kentucky;7 Kansas City,
Missouri; Austin, Texas; and Ogden, Utah, during the period June 2011 through May 2012. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our

7
    Hereafter, we will refer to the SPC located in Covington, Kentucky, as the Cincinnati SPC.
                                                                                                 Page 2
                         Processing of Foreign Currency Check Payments
                            Is Causing Unnecessary Taxpayer Burden



findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                         Page 3
                                Processing of Foreign Currency Check Payments
                                   Is Causing Unnecessary Taxpayer Burden




                                       Results of Review

We identified a number of internal control issues that adversely affected the processing of
foreign currency checks in CY 2010. As a result, there is increased risk that 1) taxpayer
payments and information could be lost, stolen, or misused; 2) taxpayers could be unnecessarily
burdened; and 3) the Federal Government could be charged with excessive or incorrect check
conversion fees.

Controls Need to Be Strengthened Over Foreign Currency Check
Payments
We reviewed a stratified random sample of 393 payments totaling $1.4 million out of a
population of 861 foreign currency checks processed by the IRS in CY 2010 and found internal
control issues involving the maintenance of important documentation, the accuracy of foreign
currency exchange rates, the issuance of collection notices, and the timeliness of processing tax
receipts. Specifically, we found that:
          Procedures did not exist on the type of documentation to maintain for taxpayer receipts
           and other information collected and processed by the Manual Deposit Unit in the five
           SPCs.
          Procedures did not exist to ensure that taxpayers were provided with accurate foreign
           currency exchange rate information when submitting checks in a foreign currency.
          IRS employees were not always initiating actions to suspend collection notices after
           taxpayers submitted payments to fully satisfy outstanding liabilities.
          Procedures were inadequate for monitoring whether taxpayer receipts and information
           were timely processed and credited to accounts.

Maintaining documentation of taxpayer receipts and other information
When foreign currency check payments arrive at the IRS, they are routed to the SPC’s Manual
Deposit Unit for processing. The IRM8 instructs the Manual Deposit Unit to hold the source
documentation in a suspense file while the foreign currency checks are converted to U.S. dollars,
deposited by Citibank, and credited to the Department of the Treasury’s general account. The
suspense file is important because Citibank may reject foreign currency check payments for a
number of reasons, such as checks that appear to be altered, have missing signatures, or are


8
    IRM 3.8.45.15(5) (Jan. 1, 2011).
                                                                                              Page 4
                             Processing of Foreign Currency Check Payments
                                Is Causing Unnecessary Taxpayer Burden



postdated. If a check is rejected, the Manual Deposit Unit is required to perform and document
specific corrective actions so the check can be processed and the payment credited to the correct
account. For example, if a rejected payment is due to a taxpayer error, the IRS employee is
instructed to return the check along with a letter to the taxpayer, notifying him or her of the
rejection, and request a new check that can be processed. Once processing is completed, the
underlying source documentation for the payments, such as payment posting vouchers and the
actions taken to correct rejected payments, should be forwarded to the IRS’s record retention
files.
The retention of such source documentation is an important internal control that provides
verifiable evidence to ensure that tax payments and other taxpayer information were
appropriately collected, timely processed, and accurately posted to taxpayer accounts.
According to the Government Accountability Office’s Standards for Internal Control in the
Federal Government: 9
        Internal control and all transactions and other significant events need to be
        clearly documented, and the documentation should be readily available for
        examination…. All documentation and records should be properly managed and
        maintained.
In testing the transactions from a stratified sample of 393 check payments submitted in a foreign
currency during CY 2010, we determined that 365 payments were converted by Citibank, while
28 payments were rejected. For the 365 converted foreign currency check payments, we
reviewed the underlying source documentation obtained from the SPCs and the IRS’s retention
files. Next, we traced the payments to the IRS’s Master File of taxpayer accounts to ensure that
converted payments were credited to the correct account. Except for 21 payments,10 the source
documentation retained for the 365 converted foreign currency check payments showed the
payments were accurately credited to taxpayer accounts.
For the 28 rejected foreign currency check payments, we tried to review the corrective actions
taken by the IRS since these payments were unable to be processed by Citibank. However, we
determined that corrective action documentation was not retained by the IRS for all 28 rejected
payments; therefore, we could not determine if the payments were returned to the taxpayers or if
the payments were resubmitted for deposit. In addition, the IRS did not retain any source
documentation in 20 of these 28 payments.11



9
  Government Accountability Office (formerly known as the General Accounting Office), GAO/AIMD-00-21.3.1,
Standards for Internal Control in the Federal Government p. 15 (Nov. 1999).
10
   After the source documentation was ordered from file retention, 21 (6 percent) of 365 converted payments had
insufficient documentation. This consisted of eight payments that had missing Taxpayer Identification Numbers and
13 payments that had a missing received date stamp.
11
   See Appendix V for more details.
                                                                                                         Page 5
                             Processing of Foreign Currency Check Payments
                                Is Causing Unnecessary Taxpayer Burden



During discussions with IRS officials over the absence of source documentation for the
converted and rejected payments, we learned that steps were subsequently taken to update the
IRM12 to specify the retention period and type of documentation required for a foreign currency
check payment once it is converted by the bank. Effective January 1, 2012,13 the Manual Deposit
Unit at each SPC is now required to retain source documentation for foreign currency payments14
on-site for three years. In addition, the IRS clarified in the IRM that the Manual Deposit Unit is
“to date stamp the payment posting voucher and/or tax return with [a] received date, if not
present.” While the changes should improve the collection and retention of critical source
documentation for converted foreign currency check payments, steps will also need to be taken
to ensure that the underlying source documentation and corrective actions for rejected payments
are similarly collected and retained.

Currency fluctuations cause problems for taxpayers and the IRS
Because currency exchange rates can fluctuate daily, taxpayers who submit checks in a foreign
currency to satisfy tax liabilities with the IRS do not always receive the amount of U.S. dollars
anticipated. Taxpayers who receive fewer U.S. dollars than expected will have to pay more taxes
and submit additional payments to satisfy the debt, while those receiving a higher amount will
likely get a refund.
The fluctuating exchange rates can also lead to confusion over amounts owed, especially when
the payments are not timely converted, processed, and credited to the correct taxpayer account.
In turn, this can create unnecessary burden on taxpayers and additional work for the IRS because
more correspondence will likely be needed between the two parties to resolve the confusion.
The amount of contact and the amount of additional information that may need to be exchanged
between the IRS and the taxpayer will vary with each situation.
To minimize burden to taxpayers who submit checks in a foreign currency and to avoid creating
additional work for their personnel, IRS managers have established a combination of controls.
However, we identified shortcomings in three controls that diminished their effectiveness.

The information the IRS provided to taxpayers for determining foreign currency
exchange rates was not complete
For taxpayers who make payments in a foreign currency, the IRS suggests that they research the
three foreign currency exchange rate sites15 listed on IRS.gov that can be used to calculate the
foreign value of the taxes they owe in U.S. dollars. When a foreign payment is received by


12
   IRM 3.8.45.25.5 (Jan. 1, 2011).
13
   The IRS issued an IRM procedure update change in November 2011 that became effective in January 2012.
14
   The source documentation required to be maintained and retained for three years includes payment posting
vouchers, tax returns, copies of checks, and bank deposit tickets.
15
   The three exchange rate sites are Oanda.com, X-Rates.com, and XE.com.
                                                                                                         Page 6
                              Processing of Foreign Currency Check Payments
                                 Is Causing Unnecessary Taxpayer Burden



Citibank for processing, Citibank converts the payment to U.S. dollars and sends the confirmed
bank deposit ticket back to the originating SPC. We analyzed our sample of 365 converted
foreign currency check payments to determine how close the Citibank exchange rate was to the
exchange rate on the three sites recommended by the IRS. Eight foreign currency check
payments in our sample were missing the Taxpayer Identification Number (TIN). As a result,
we were only able to compare 357 of the payments.
Because the contract with Citibank does not specify an exchange rate to be used, we calculated
the foreign currency conversion amounts using an average of the exchange rates from the three
sites suggested by the IRS and the Citibank confirmation date from each deposit ticket. We then
took the average conversion amount and compared it to the Citibank conversion amount. We
found that 353 (99 percent) of the 357 foreign currency check payments were converted by
Citibank at a lower exchange rate. When comparing Citibank’s exchange rate to the average of
the three exchange rate sites, we identified differences in dollar amounts ranging from a low of
$.03 to a high of $2,642.90.
As a result, we determined that taxpayers received a total of $27,150 less for their payments (an
average of $77 less per payment) than what they expected as a result of Citibank using lower
exchange rates. This occurred because taxpayers relied on the information provided by the IRS
on IRS.gov, which did not accurately reflect the exchange rates used by Citibank. Based on our
stratified random sample, we project that taxpayers submitting 781 (99 percent)16 foreign
currency check payments received a total of $60,137 less from the conversion process during
CY 2010. If IRS.gov is not updated to provide taxpayers with exchange rate information
comparable to the exchange rates used by Citibank, we estimate that taxpayers submitting
3,905 foreign currency check payments will receive approximately $300,685 less from the
conversion process over the next five years due to the differences in the foreign currency
exchange rates being used by Citibank.
In addition, 12 (3 percent) of the 353 foreign currency check payments would have paid off the
taxpayers’ accounts in full had Citibank used exchange rates comparable to those on the three
exchange rate sites suggested by the IRS. We determined that taxpayers who submitted 10 of
these foreign currency check payments were assessed additional penalties and interest totaling
$906 (an average of $91 per payment) because their accounts were not paid off in full due to
lower exchange rates. As a result, taxpayers had to send in additional payments. Based on our
stratified random sample, we estimate that taxpayers who submitted 40 (5 percent) foreign
currency tax payments during CY 2010 would have paid their accounts off in full if comparable
exchange rates were used by Citibank. We also estimate that taxpayers who submitted
32 (4 percent) foreign currency check payments may have unnecessarily been assessed additional



16
 This percentage is calculated using a weighted average error rate based on the stratified sample results. See
Appendix IV for more details.
                                                                                                            Page 7
                             Processing of Foreign Currency Check Payments
                                Is Causing Unnecessary Taxpayer Burden



interest and penalties totaling $2,912 for CY 2010, or $14,560 when projected over the next
five years.
When we discussed this issue with IRS management, they were unaware that the exchange rates
used by Citibank provided a lower conversion amount than the rates of the sites suggested by the
IRS and reflected on IRS.gov. This has resulted in some taxpayers being frustrated with the
lower conversion amounts, as reflected *********************1**********************
****1*****.
         ************************************1*******************************
         ************************************1*******************************
         ************************************1********************************
         ***************************************1*****************************

Collection actions were not always suspended as required
IRS employees were not always initiating actions to suspend collection notices after taxpayers
submitted payments to fully satisfy outstanding liabilities. The IRM17 directs IRS employees to
put a code on a taxpayer’s account when a foreign currency payment is received as a result of a
balance due notice. The code delays collection activities for four cycles and temporarily stops
the issuance of all taxpayer notices to allow for the payment to post to the taxpayer’s account.
We found that taxpayers who submitted 19 foreign currency check payments from our sample of
344 payments18 with proper source documentation had erroneously received a collection notice
after their payments were received by the IRS. This occurred because the code was not placed
on any of these taxpayers’ accounts while the foreign payments were being processed. More
specifically:
        Twelve (63 percent) of the 19 payments were received with a tax return or payment
         voucher. When we discussed these cases with IRS management, they stated the code was
         not required to be placed on the taxpayers’ accounts because there were not any
         outstanding tax liabilities. However, these accounts became delinquent while the foreign
         currency check payments were being processed, which resulted in the taxpayers
         erroneously receiving collection notices.
        Seven (37 percent) of the 19 payments were received as a result of a balance due notice.
         If the code had been properly entered on the taxpayers’ accounts when the payment was
         received, it would have prevented subsequent collection notices from being erroneously
         issued. When we discussed these cases with IRS management, they stated it appears that


17
  IRM 3.8.45.15(3) (Jan. 1, 2011).
18
  Of the 365 converted payments, 21 payments had missing source documentation and, as a result, could not be
reviewed. The remaining 344 converted foreign currency check payments had proper source documentation to
conduct a complete review.
                                                                                                         Page 8
                              Processing of Foreign Currency Check Payments
                                 Is Causing Unnecessary Taxpayer Burden



        the employees need to be reminded of the procedures to prevent the erroneous issuance of
        notices.
Collection notices erroneously issued to taxpayers create burden and confusion on the amount of
taxes owed, which has caused some taxpayers to send in unnecessary payments. For example,
taxpayers who submitted three (16 percent) of the 19 foreign currency check payments sent in
additional payments because of the collection notices and received full refunds of their additional
payments plus interest due on their overpayments. These notices also created additional work
for the IRS in terms of mailing the collection notices, responding to taxpayers’ inquiries
regarding the notices, and processing and refunding additional payments. Based on our stratified
random sample, we estimate that taxpayers submitting 58 (7 percent)19 foreign currency check
payments erroneously received collection notices during CY 2010. Projected over five years, an
estimated 290 taxpayers would erroneously receive collection notices.

Foreign currency payments were not always timely processed
IRM procedures do not adequately ensure that Citibank processing delays are resolved timely.
When Citibank receives a foreign currency payment for processing, the contract has a guaranteed
funds delivery date20 of three business days for Canadian currency checks and five business days
for all other foreign currency checks. However, despite the emphasis on expedited processing,
the IRM21 does not require the Manual Deposit Unit to start follow-up actions for resolving
processing delays until four weeks has elapsed without confirmation from Citibank that the
payment was deposited. Since foreign currency exchange rates change daily, delays in
processing can affect the dollar amounts that taxpayers receive for their payments.
Foreign currency check payments arrive into the IRS processing system from various sources.
Payments received in the field or in Accounts Management Centers are to be mailed overnight to
an SPC within 24 hours of receipt. The SPCs are required to deposit all payments daily.22 The
Manual Deposit Unit within the SPC prepares the bank deposit ticket and the foreign currency
check payment that is sent to Citibank by overnight mail for processing.
To measure timeliness, we compared the date the IRS’s Manual Deposit Unit created and mailed
the bank deposit ticket to Citibank with the date Citibank converted and deposited the payment.
Our analysis showed that more than 10 calendar days23 had elapsed before payments were

19
   This percentage is calculated using a weighted average error rate based on the stratified sample results. See
Appendix IV for more details.
20
   The date Citibank will credit funds to the Department of the Treasury’s general account.
21
   IRM 3.8.45(6) (Jan. 1, 2011).
22
   IRM 3.30.123.3.1 (Jan. 1, 2011) states that the deposit processing cycle can be extended to three business days
during filing season.
23
   While the Citibank contract states business days, we measured Citibank’s timeliness by calendar days taking into
consideration the time needed for the IRS to mail payments to Citibank, Citibank’s processing time, and additional
processing time for weekends.
                                                                                                            Page 9
                              Processing of Foreign Currency Check Payments
                                 Is Causing Unnecessary Taxpayer Burden



processed and deposited by Citibank for 90 (26 percent) of the 344 converted payments in our
sample that had complete source documentation for us to review. The average processing time
for these 90 payments was 18 days, and the time elapsed ranged from 11 days to 69 days. Based
on our stratified random sample, we project that 116 (15 percent)24 foreign currency check
payments were not processed timely during CY 2010; this projects to 580 payments over the
next five years.
Foreign currency check payment processing timeliness could be improved by taking follow-up
actions with Citibank sooner. For example, 68 of the 90 untimely payments in our sample were
processed by one Manual Deposit Unit that generally followed IRM guidelines by waiting four
weeks before following up with Citibank. However, another Manual Deposit Unit that generally
followed up with Citibank within one week processed only four untimely payments. IRS
management was unsure why the IRM was not consistent with the contract for initiating
follow-up actions. It is important that processing delays are resolved timely because fluctuations
in the foreign currency exchange rates directly impact the amount taxpayers are credited with
paying.

Recommendations
The Director, Submission Processing, Wage and Investment Division, should:
Recommendation 1: Update the IRM to specify that employees responsible for processing
foreign currency check payments retain the source documentation and create and maintain
documentation of the corrective actions taken on rejected foreign currency payments.
        Management’s Response: IRS management agreed with this recommendation.
        IRM 3.8.45.15, Foreign Check Remittances, was updated on June 7, 2012, to require the
        maintenance of logs and case files for all foreign deposits and rejected foreign deposits.
        The IRM updates specify the information to be recorded and retained in the case files as
        well as the applicable retention period.
Recommendation 2: Ensure that no collection notices are issued to taxpayers while their
foreign currency check payments are being processed.
        Management’s Response: IRS management agreed with this recommendation and
        implemented changes to procedures in IRM 3.8.45.15, Foreign Check Remittances, on
        June 7, 2012, to reduce the risk of issuing collection notices to taxpayers while their
        foreign currency check payments are being processed. The IRS has also increased the
        frequency of its monitoring of foreign currency cash conversions to further ensure that
        they are completed prior to collection notices being issued.


24
 This percentage is calculated using a weighted average error rate based on the stratified sample results. See
Appendix IV for more details.
                                                                                                           Page 10
                                 Processing of Foreign Currency Check Payments
                                    Is Causing Unnecessary Taxpayer Burden



Recommendation 3: Assess the four-week criteria used to initiate follow-up actions when
contractor delays occur in the processing of foreign currency check payments to determine the
benefits, if any, of initiating follow-up actions earlier in the process.
           Management’s Response: IRS management agreed with this recommendation.
           On June 7, 2012, IRM 3.8.45.15, Foreign Check Remittances, was updated to require
           follow-up action with the contractor if a confirmed deposit ticket has not been received
           within one week.
Recommendation 4: Coordinate with the function responsible for maintaining IRS.gov to
provide additional information to the site on how the exchange rate used for foreign currency
payment conversions is calculated and applied by the processing bank.
           Management’s Response: IRS management agreed with this recommendation and
           will update IRS.gov to clarify that exchange rate information is to be used for
           determining the U.S. dollar equivalent of taxable transactions conducted in foreign
           currencies. They will also clarify that taxpayers are required to remit tax payments in
           U.S. dollars and that exchange rate information should not be used for calculating the
           amount of tax payments to remit in foreign currency.
           Office of Audit Comment: While IRS management agreed with this
           recommendation, they did not agree with its related outcome measure attributable to
           taxpayer burden arising from exchange rates at the time foreign currency payments are
           converted because taxpayers are required to pay their tax liabilities in U.S. dollars.
           However, as a matter of policy, the IRS accepts and processes checks in foreign
           currencies. Any delays in the processing of these checks, as described in this report, will
           continue to burden taxpayers.

The Internal Revenue Service Does Not Verify Foreign Check
Processing Charges
As part of our review, we obtained from the Financial Management Services (FMS) the CY 2010
billing invoices related to charges incurred by the IRS for processing foreign checks as well as
the foreign check-processing contract with Citibank. The most recent contract provided to us
was dated January 3, 1994. A FMS Treasury General Account Financial Program Specialist
stated that the contract was still in effect and that the FMS has started the process of
renegotiating the contract. The current contract in effect for foreign check processing was set up
to cover multiple Federal agencies.
Under the existing contract, Citibank charges a fee for each foreign check processed during the
month.25 The contract with Citibank states that the fee to process a check in Canadian currency

25
     This includes all foreign currency checks as well as checks written in U.S. dollars from a foreign bank account.
                                                                                                              Page 11
                                Processing of Foreign Currency Check Payments
                                   Is Causing Unnecessary Taxpayer Burden



or in U.S. currency drawn on a Canadian bank is $2, all other foreign currencies or in
U.S. currency drawn on another foreign country bank is $5, and a rejected payment is $15.
Each month, Citibank sends a billing statement directly to the FMS for payment.26 However, on
the monthly statement, the foreign check processing charges are combined for all Federal
agencies. As a result, we were unable to validate the specific IRS charges submitted by
Citibank.
Based on the population of foreign currency payments processed by the IRS during CY 2010, we
estimate the fees that Citibank would have charged the FMS were approximately $6,294. Under
the same contract, we determined that Citibank also charges the FMS for payments processed by
the IRS in U.S. dollars but drawn on a foreign bank. Although these payments are outside the
scope of the review, we estimate the fees that Citibank would have charged the FMS are
approximately $24,840 to $52,659, depending on whether the foreign bank was Canadian or in
another foreign country.
In addition, we determined that the IRS does not verify the accuracy of its monthly charges, and
the FMS pays the monthly fees to Citibank without verification from any of the individual
Federal agencies supported by the contract. The FMS also told us that the only time a monthly
billing statement from Citibank would be questioned is if the statement is greater than $30,000.
According to the Government Accountability Office’s Standards for Internal Control in the
Federal Government, “Periodic comparison of resources with the recorded accountability should
be made to help reduce the risk of errors, fraud, misuse, or unauthorized alteration.” While the
IRS has no further role in the process once a foreign check payment is sent to Citibank, the lack
of controls regarding verification of the processing charges creates a risk for the Federal
Government in erroneous expenditures and fraudulent charges. We believe that better controls
are needed so that the IRS can verify that its foreign check processing charges on the monthly
billing statements are accurate.

Recommendation
Recommendation 5: The Director, Submission Processing, Wage and Investment Division,
should coordinate with the FMS to explore the feasibility of establishing a process to verify
foreign check processing charges for IRS-submitted taxpayer payments.
           Management’s Response: IRS management agreed with this recommendation.
           They have discussed the issue with the FMS and have been advised that the FMS is
           responsible for establishing all depositary relationships for all Federal Government
           agencies under the Treasury General Account. The FMS is responsible for compensating
           the depositaries for processing these deposits and does not require the depositaries to


26
     See Appendix VI for an example of a Citibank monthly billing statement.
                                                                                          Page 12
                 Processing of Foreign Currency Check Payments
                    Is Causing Unnecessary Taxpayer Burden



segregate agency checks for compensation. These accounts are Treasury General
Accounts, are not agency-specific, and multiple agencies deposit into the foreign check
depositary account. The IRS considers this action to be complete.




                                                                                 Page 13
                            Processing of Foreign Currency Check Payments
                               Is Causing Unnecessary Taxpayer Burden



                                                                                   Appendix I

         Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS effectively and efficiently processes
taxpayer payments made in foreign currencies. Specifically, we determined what methods the
IRS uses to ensure that payments are timely and properly credited to the IRS’s and taxpayers’
accounts. To accomplish our audit, we:
I.      Evaluated the controls and procedures followed by the SPCs1 for processing foreign
        currency check payments.
        A. Conducted a walk-through of the Austin, Cincinnati,2 Fresno, Kansas City, and
           Ogden SPCs and determined how foreign currency check payments are processed.
        B. Interviewed IRS officials at the Andover, Atlanta,3 Brookhaven,4 Memphis, and
           Philadelphia Accounts Management Centers and obtained an understanding of their
           policies, procedures, and controls related to processing foreign currency check
           payments.
        C. Analyzed all of the SPC procedures and controls and determined whether changes are
           needed to current processes to ensure consistency among the SPCs.
        D. Obtained the policy criteria used by the IRS to determine the correct date for posting
           to a taxpayer’s account a foreign currency check payment received by the IRS.
II.     Calculated the costs and burden to taxpayers and the IRS for processing foreign currency
        check payments.
        A. Selected a 100 percent sample of foreign currency check payments processed during
           CY 2010 at the Cincinnati, Fresno, and Ogden SPCs. Our contract statistician
           assisted and reviewed our sampling plan and projections. The number of foreign
           currency check payments in our sample from each of the following SPCs were:
                   Cincinnati SPC – 29 foreign currency check payments.
                   Fresno SPC – 83 foreign currency check payments.
                   Ogden SPC – 88 foreign currency check payments.



1
  See Appendix VII for a glossary of terms.
2
  The Cincinnati SPC is located in Covington, Kentucky.
3
  The Atlanta Accounts Management Center is located in Chamblee, Georgia.
4
  The Brookhaven Accounts Management Center is located in Holtsville, New York.
                                                                                          Page 14
                  Processing of Foreign Currency Check Payments
                     Is Causing Unnecessary Taxpayer Burden



   Selected a statistically valid random sample of foreign currency check payments
   processed during CY 2010 at the Austin and Kansas City SPCs using a 95 percent
   confidence level, 10 percent error rate, and ±5 percent precision rate. The contract
   statistician assisted and reviewed our sampling plan and projections. The numbers of
   foreign currency check payments in our sample from each of the following SPCs
   were:
          Austin SPC – 94 foreign currency check payments.
          Kansas City SPC – 99 foreign currency check payments.
B. Prepared a case review sheet used to capture information for each of the following
   steps.
C. Determined whether the received date of the foreign currency check payment was the
   same date posted to the taxpayer’s Master File account by obtaining the received date
   from the source documentation and comparing to the posting date on the Integrated
   Data Retrieval System (IDRS).
D. Conducted analyses and determined whether delays in converting foreign currency
   checks to U.S. dollars caused the taxpayer to incur additional penalties or interest or
   to erroneously receive collection notices.
   1. Conducted research using the IDRS and compared the date the payment posted to
      the taxpayer’s account to the date it was received from the taxpayer to determine
      the number of days expended during the conversion process.
   2. Reviewed IDRS taxpayer account data and identified whether any penalties
      and/or interest accrued during the conversion period.
   3. Compared the amount posted on the IDRS to what the exchange rate amount was
      on the date the payment was received from the taxpayer using the websites
      OANDA.com, X-Rates.com, and XE.com to determine whether the taxpayer
      received a lesser amount for his or her check due to the delay in the conversion
      process. If the amount on the IDRS was less, we reviewed the taxpayer’s account
      to determine whether a collection notice was issued for the difference.
   4. Reviewed IDRS taxpayer account data and determined whether collection notices
      were issued between the date the payment was received from the taxpayer and the
      date the payment posted to the taxpayer’s account.
   5. Reviewed IDRS taxpayer account data and determined whether any account holds
      placed on the account were released to ensure that a collection notice could be
      issued for the remaining balance.



                                                                                    Page 15
                        Processing of Foreign Currency Check Payments
                           Is Causing Unnecessary Taxpayer Burden



           6. Compared the bank conversion report, e.g., bank deposit ticket, to the amount
              posted to the taxpayer’s account on the Master File and determined whether the
              conversion amount was posted properly.
       E. Determined the costs the IRS incurred for converting foreign currency check
          payments to U.S. dollars. We analyzed the accounts using the IDRS to determine
          whether delays in converting the payments caused the IRS to refund a portion of the
          taxpayer’s payment due to differences in the exchange rates from the date the
          taxpayer made the payment to the date the payment was converted.
       F. Determined whether Citibank was converting foreign currency payments timely and
          whether the exchange rate was comparable to the three exchange rate sites suggested
          by the IRS on IRS.gov.
           1. Interviewed FMS management and gained an understanding of the contract
              between the FMS and Citibank, the monthly invoice process, and payment of the
              monthly invoices.
           2. Obtained Citibank’s contract, International Check Collections Services, and
              monthly billing statements and determined the procedures and costs for
              processing foreign currency check payments.
           3. Analyzed the contract and determined the contract fees charged, conversion rates
              used, and processing times expected of Citibank.
           4. Analyzed the payments selected from Step II.A. and compared to the three
              exchange rate sites suggested by the IRS on IRS.gov. We determined whether
              Citibank was providing a comparable exchange rate.
           5. Analyzed the payments selected from Step II.A. and determined whether Citibank
              processed the payments timely.
Data validation methodology
During this review, we evaluated the reasonableness of the foreign currency data received from
each SPC through comparison of foreign currency check payment data stored on the OTCnet
system, which is used by the IRS to deposit foreign currency check payments to Citibank.
Specifically, we compared the number of total payments we received from each of the five
individual SPCs to the total number of foreign currency payments located on the OTCnet system
by SPC. We then verified the data to ensure that the data from the SPC matched what is on the
OTCnet system (voucher number, dollar amount, currency type, etc.). These tests determined
that the data were sufficiently reliable and could be used to meet the objective of this audit.




                                                                                       Page 16
                        Processing of Foreign Currency Check Payments
                           Is Causing Unnecessary Taxpayer Burden



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: Wage and Investment Division
Submission Processing function’s policies, procedures, and practices for processing foreign
currency check payments. We evaluated these controls by reviewing source materials,
interviewing management, and analyzing a sample of foreign currency check payments
processed during CY 2010.




                                                                                        Page 17
                       Processing of Foreign Currency Check Payments
                          Is Causing Unnecessary Taxpayer Burden



                                                                            Appendix II

                Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Bryce Kisler, Director
Christina M. Dreyer, Audit Manager
Carole E. Connolly, Acting Audit Manager
Michele S. Jahn, Lead Auditor
Margaret F. Filippelli, Senior Auditor




                                                                                    Page 18
                      Processing of Foreign Currency Check Payments
                         Is Causing Unnecessary Taxpayer Burden



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner for Operations, Wage and Investment Division SE:W
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Deputy Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP:D
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Wage and Investment Division SE:W




                                                                                Page 19
                              Processing of Foreign Currency Check Payments
                                 Is Causing Unnecessary Taxpayer Burden



                                                                                               Appendix IV

                                    Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Taxpayer Burden – Potential; $63,049 for 781 foreign currency check payments in CY 2010,
    or $315,245 for 3,905 foreign currency check payments over the next five years1 (see
    page 4).

Methodology Used to Measure the Reported Benefit:
From our sample of 365 converted foreign currency check payments, we found eight payments
had missing documentation and were excluded from our sample. As a result, we were only able
to review 357 foreign currency check payments for the exchange rate used to convert the
payments to U.S. dollars.
We determined that 353 of the 357 foreign currency check payments were converted by Citibank
at a lower exchange rate when compared to the average of the three exchange rate sites suggested
by the IRS on IRS.gov. As a result, taxpayers received $27,150 ($77 per payment) less than
what they expected for their foreign currency check payments as a result of the lower exchange
rates used by Citibank. To project the results of our sample, we used a stratified random sample,
with a weighted average for each SPC. Figure 1 shows the weighted average calculations and
projections to the population.




1
  Taxpayers submitting 781 foreign currency check payments received $60,137 less for their payments, and 32 of
those payments would have paid accounts off in full. Instead, taxpayers paid $2,912 in penalties and interest in
CY 2010 ($60,137 +$2,912 = $63,049, or $315,245 over five years).
                                                                                                          Page 20
                                      Processing of Foreign Currency Check Payments
                                         Is Causing Unnecessary Taxpayer Burden



         Figure 1: Projections for Stratified Random Sample (Conversion Rate)

                                                        Austin        Cincinnati      Fresno        Kansas City     Ogden           Total
                                                        SPC 1           SPC 2         SPC 3           SPC 4         SPC 5         Population
 Population Data
 Popul a ti on (Confi rmed Pa yments )                       286                23             83          318              83           793
 Popul a ti on Percenta ge  (1)                          36.07%           2.90%        10.47%           40.10%       10.47%         100.00%
 Sample Data
 Ca s es  Sel ected for Revi ew                                  94             29             83             99            88           393
 Les s  Sa mpl e Rejected Pa yments                             (8)             (6)            0              (9)           (5)         (28)
 Subtota l  (Sa mpl e Confi rmed Pa yments )                     86             23             83             90            83           365
 Les s  Mi s s i ng Documenta ti on                              0              (2)           (1)             (3)           (2)             (8)
 Ca s es  Revi ewed (Confi rmed Pa yments )                      86             21             82             87            81           357


 Conversion Rate Issue
 Number of Errors                                                85             21             81             85            81           353
 Error Ra te for ea ch SPC (2)                           98.84%         100.00%        98.78%           97.70%      100.00%
 SPC Wei ghted Avera ge Error Ra te  (3)                 35.65%           2.90%        10.34%           39.18%       10.47%
 Sa mpl e Wei ghted Avera ge (Sum of #3 Res ul ts )                                                                                  98.53%
 Appl y Sa mpl e Wei ghted Avera ge Res ul t to Popul a ti on for CY 2010 (98.53% *793)                                                  781
 Projected Over Fi ve Yea rs                                                                                                           3905
 Conversion Rate Issue:  Taxpayer would have paid off account
 Number of Errors                                                 4              0              1              7             0              12
 Error Ra te for ea ch SPC (4)                            4.65%           0.00%         1.22%            8.05%        0.00%
 SPC Wei ghted Avera ge Error Ra te (5)                   1.68%           0.00%         0.13%            3.23%        0.00%
 Sa mpl e Wei ghted Avera ge (Sum of #5 Res ul ts )                                                                                   5.03%
 Appl y Sa mpl e Wei ghted Avera ge Res ul t to Popul a ti on for CY 2010 (5.03% * 793)                                                     40
 Projected Over Fi ve Yea rs                                                                                                             200
 Conversion Rate Issue:  Taxpayer would have paid off account, instead assessed additional penalties and interest
 Number of Errors                                                 4              0              1              5             0              10
 Error Ra te for ea ch SPC (4)                            4.65%           0.00%         1.22%            5.75%        0.00%
 SPC Wei ghted Avera ge Error Ra te (5)                   1.68%           0.00%         0.13%            2.30%        0.00%
 Sa mpl e Wei ghted Avera ge (Sum of #5 Res ul ts )                                                                                   4.11%
 Appl y Sa mpl e Wei ghted Avera ge Res ul t to Popul a ti on for CY 2010 (4.11% * 793)                                                     32
 Projected Over Fi ve Yea rs                                                                                                             160
 1 = SPC Population divided by Total Population
 2 or 4 = Number of Errors divided by Cases Reviewed
 3 or 5 = Number of Errors  divided by Cases Reviewed

Source: Data obtained from the IRS using the OTCnet system and our analysis of the foreign currency payments
reviewed.




                                                                                                                                  Page 21
                         Processing of Foreign Currency Check Payments
                            Is Causing Unnecessary Taxpayer Burden



As reflected, we calculated a weighted average for each SPC by multiplying the SPC population
percentage to the SPC error rate. This computed weighted error rates of 35.65 percent for the
Austin SPC, 2.90 percent for the Cincinnati SPC, 10.34 percent for the Fresno SPC,
39.18 percent for the Kansas City SPC, and 10.47 percent for the Ogden SPC, for a total sample
weighted average of 98.53 percent. We then applied this sample weighted average to the
converted population of 793 foreign currency check payments. Based on these parameters,
781 (793 x .9853) of the foreign currency check payments were converted at a lower exchange
rate by Citibank than the average of the three exchange rate sites suggested by the IRS on
IRS.gov. As a result, taxpayers received a total of $60,137 less (781 x $77) for their foreign
currency check payments during CY 2010. We also project that taxpayers submitting 3,905 in
foreign currency check payments will receive approximately $300,685 less than they expect over
the next five years due to differences in the foreign currency exchange rates.
In addition, we determined that 12 of the 353 payments would have paid off the taxpayers’
accounts in full had Citibank used exchange rates comparable to those on the three exchange rate
sites suggested by the IRS on IRS.gov. We determined that taxpayers who submitted 10 of these
foreign currency check payments were assessed additional penalties and interest totaling $906
(an average of $91 per payment) because the accounts were not paid off in full due to the lower
exchange rates.
To project the results of our sample, we used a stratified random sample with a weighted average
for each SPC. Figure 1 shows the weighted average calculations and projections to population.
As reflected, we calculated a weighted average for each SPC by multiplying the SPC population
percentage by the SPC error rate. This computed weighted error rates of 1.68 percent for the
Austin SPC, 0 percent for the Cincinnati SPC, 0.13 percent for the Fresno SPC, 2.30 percent for
the Kansas City SPC, and 0 percent for the Ogden SPC, for a total sample weighted average of
4.11 percent. We then applied this sample weighted average to the converted population of
793 foreign currency check payments. Based on these parameters, taxpayers who submitted
32 (793 x .0411) foreign currency check payments may have unnecessarily been assessed
additional penalties and interest totaling $2,912 for CY 2010, or $14,560 in penalties and interest
over the next five years.




                                                                                           Page 22
                             Processing of Foreign Currency Check Payments
                                Is Causing Unnecessary Taxpayer Burden




Type and Value of Outcome Measure:
   Taxpayer Burden – Potential; 174 foreign currency check payments affected, or 870 foreign
    currency check payments over the next five years 2 (see page 4).

Methodology Used to Measure the Reported Benefit:
The IRS processed a total of 861 foreign currency check payments during CY 2010.3 The IRS
sent these payments to Citibank for conversion to U.S. dollars. Out of the 861 payments,
Citibank rejected 68 of them and converted 793 foreign currency check payments during
CY 2010.
We selected 100 percent of the foreign currency check payments from the Cincinnati
(29 payments), Fresno (83 payments), and Ogden (88 payments) SPCs and a random statistical
sample from the Austin (94 payments) and Kansas City (99 payments) SPCs using a 95 percent
confidence level, 10 percent error rate, and ±5 percent precision rate. This resulted in
393 foreign currency check payments in our sample, of which 28 foreign currency check
payments were rejected by Citibank. This resulted in 365 converted foreign currency check
payments left in our sample. Our sample also had 21 payments with missing documentation that
prevented us from doing a complete review. As a result, we were only able to review
344 payments.
Our review found that 90 of the 344 foreign currency check payments in our sample were not
timely processed by Citibank. To project the results of our sample, we used a stratified random
sample with a weighted average for each SPC. Figure 2 shows the weighted average calculations
and projections to the population.




2
  There were 116 foreign currency check payments that were not timely processed by Citibank and taxpayers
submitting 58 of the foreign currency check payments received an erroneous collection notice, projected for
CY 2010 (116 + 58 = 174 taxpayer payments affected, or 870 payments over five years).
3
  The Atlanta SPC located in Chamblee, Georgia, was in the process of closing down its submission processing
function during CY 2010. As a result, we did not include the Atlanta SPC in any of our SPC analyses or population
totals.
                                                                                                        Page 23
                                    Processing of Foreign Currency Check Payments
                                       Is Causing Unnecessary Taxpayer Burden



    Figure 2: Projections for Stratified Random Sample (Converted Payments)

                                                   Austin        Cincinnati    Fresno     Kansas City   Ogden       Total
                                                   SPC 1           SPC 2       SPC 3        SPC 4       SPC 5     Population
 Population Data
 Popul a ti on (Confi rmed Pa yments )                     286           23         83           318         83         793
 Popul a ti on Percenta ge  (1)                         36.07%       2.90%      10.47%        40.10%     10.47%     100.00%

 Sample Data
 Ca s es  Sel ected for Revi ew                             94            29         83            99        88          393
 Les s  Sa mpl e Rejected Pa yments                        (8)           (6)         0            (9)       (5)         (28)
 Subtota l  (Sa mpl e Confi rmed Pa yments )                86           23         83             90        83          365
 Les s  Mi s s i ng Documenta ti on                        (3)           (2)        (8)           (6)       (2)         (21)
 Ca s es  Revi ewed (Confi rmed Pa yments )                 83           21         75             84        81         344


 Payments Not Timely Processed by Citibank
 Number of Errors                                            4           0          68             3         15           90
 Error Ra te for ea ch SPC (2)                           4.82%       0.00%      90.67%         3.57%     18.52%
 SPC Wei ghted Avera ge Error Ra te  (3)                 1.76%       0.00%       9.59%         1.45%      1.96%

 Sa mpl e Wei ghted Avera ge (Sum of #3 Res ul ts )                                                                  14.75%
 Appl y Sa mpl e Wei ghted Avera ge Res ul ts  to Popul a ti on for CY 2010 projecti on (14.75% * 793)                   116
 Projected Over Fi ve Yea rs                                                                                             580
 Erroneous Collection Notice
 Number of Errors                                            8           2           2             7          0           19
 Error Ra te for ea ch SPC (4)                           9.64%       9.52%       2.67%         8.33%      0.00%
 SPC Wei ghted Avera ge Error Ra te (5)                  3.48%       0.28%       0.28%         3.34%      0.00%


 Sa mpl e Wei ghted Avera ge (Sum of #5 Res ul ts )                                                                   7.37%
 Appl y Sa mpl e Wei ghted Avera ge Res ul t to Popul a ti on for CY 2010 (7.37% * 793)                                   58
 Projected Over Fi ve Yea rs                                                                                             290
 1 = SPC Population divided by Total Population
 2 or 4 = Number of Errors divided by Cases Reviewed
 3 or 5 = Number of Errors  divided by Cases Reviewed

Source: Data obtained from the IRS using the OTCnet system and our analysis of the foreign currency payments
reviewed.

As reflected, we calculated a weighted average for each SPC by multiplying the SPC population
percentage to the SPC error rate. This computed weighted error rates of 1.76 percent for the
Austin SPC, 0 percent for the Cincinnati SPC, 9.59 percent for the Fresno SPC, 1.45 percent for
the Kansas City SPC, and 1.96 percent for the Ogden SPC, for a total sample weighted average
of 14.75 percent. We then applied this sample weighted average to the converted population of
793 foreign currency check payments. Based on these parameters, 116 (793 x .1475) foreign
currency check payments were not timely processed in CY 2010, or 580 over the next five years.


                                                                                                                    Page 24
                         Processing of Foreign Currency Check Payments
                            Is Causing Unnecessary Taxpayer Burden



In addition, we determined that taxpayers submitting 19 of the 344 foreign currency check
payments erroneously received a collection notice because the appropriate code was not input to
their accounts. To project the results of our sample, we used a stratified random sample with a
weighted average for each SPC. Figure 1 shows the weighted average calculations and
projections to population for erroneous collection notices. As reflected, we calculated a
weighted average for each SPC by multiplying the SPC population percentage by the SPC error
rate. This computed weighted error rates of 3.48 percent for the Austin SPC, 0.28 percent for the
Cincinnati SPC, 0.28 percent for the Fresno SPC, 3.34 percent for the Kansas City SPC, and
0 percent for the Ogden SPC, for a total sample weighted average of 7.37 percent. We then
applied this sample weighted average to the converted population of 793 foreign currency check
payments. Based on these parameters, taxpayers making 58 (793 x 0.0737) of the foreign
currency check payments processed in CY 2010 erroneously received a collection notice, or
290 over the next five years.




                                                                                         Page 25
                                  Processing of Foreign Currency Check Payments
                                     Is Causing Unnecessary Taxpayer Burden



                                                                                                Appendix V

                 Submission Processing Centers’
             Payment Documentation Retention Results

                            Converted Payments – Document Retention Per SPC 
          Procedure                  Austin       Cincinnati         Fresno        Kansas City      Ogden 

 Maintained Copies of All
 Converted Source                     Yes             No              Yes                No          No 
 Documentation 

 Available Source
 Documentation Contained              No             Yes               No                No          Yes 
 an IRS Received Date 

 Maintained Copies of All
                                      Yes            Yes              Yes                Yes         Yes 
 Converted Deposit Slips 

Source: Our analyses of confirmed foreign currency check payment source documentation.



                            Rejected Payments – Document Retention Per SPC 
          Procedure                 Austin        Cincinnati         Fresno        Kansas City      Ogden 

 Maintained Copies of All
 Rejected Source                     Yes             No                No                No          No 
 Documentation 

 Maintained Copies of All
                                     Yes             Yes               No                Yes         Yes 
 Rejected Bank Deposit Slips 

 Maintained Copies of
 Rejection Letters to Taxpayers       No             No                No                No          No 
 Regarding Corrective Actions 

Source: Our analyses of rejected foreign currency check payment source documentation.




                                                                                                     Page 26
                   Processing of Foreign Currency Check Payments
                      Is Causing Unnecessary Taxpayer Burden



                                                                                Appendix VI

Example of a Billing Statement From Citibank for
  Monthly Foreign Check Processing Charges




  Source: The FMS. Note: ACH = Automated Clearing House. AFP = Association for
  Financial Professionals. DDA = Demand Deposit Account. ITGA = International Treasury
  General Account. TTB = Treasury Time Balance.

                                                                                         Page 27
                       Processing of Foreign Currency Check Payments
                          Is Causing Unnecessary Taxpayer Burden



                                                                             Appendix VII

                            Glossary of Terms

Term                               Definition

Accounts Management Center         IRS campuses that do not process tax returns.
Association for Financial          Identifies product codes for the financial services
Professionals (AFP)                recognized by the FMS. A product code is a standard
                                   six-character designation that represents a specific and
                                   defined product or service the Lockbox Depositary
                                   performs to support financial services for Federal
                                   agencies.
Automated Clearing House           The primary electronic funds transfer system used by
(ACH)                              agencies to make payments.
Calendar Year (CY)                 Twelve consecutive months ending December 31.
Cycle                              All transactions posting to good tape for transmittal to the
                                   Martinsburg Computing Center that are processed through
                                   the campus during a prescribed period, usually one week.
Demand Deposit Account (DDA)       An account maintained by the U.S. Department of the
                                   Treasury at the Lockbox Depositary for crediting agencies
                                   for lockbox deposits.
Financial Management Services      A bureau of the U.S. Department of the Treasury,
(FMS)                              providing central payment services to Federal program
                                   agencies, operating the Federal Government’s collections
                                   and deposit systems, providing Governmentwide
                                   accounting and reporting services, and managing the
                                   collection of delinquent debt owed to the Government.
Fiscal Year                        A 12-consecutive-month period ending on the last day of
                                   any month, except December. The Federal Government’s
                                   fiscal year begins on October 1 and ends on September 30.

Integrated Data Retrieval System   A computerized system used throughout the IRS for
(IDRS)                             adjusting, researching, ordering, and monitoring tax
                                   accounts.

                                                                                       Page 28
                       Processing of Foreign Currency Check Payments
                          Is Causing Unnecessary Taxpayer Burden




Term                             Definition

Integrated Submission and        A system that converts paper tax and information
Remittance Processing System     documents and remittances received by the IRS into
                                 perfected electronic records of taxpayer data.
International Treasury General   An account maintained in the name of the U.S.
Account (ITGA)                   Department of the Treasury.
Lockboxes                        A collection and processing service provided by a network
                                 of financial institutions that accelerates the flow of funds
                                 to the U.S. Department of the Treasury. The financial
                                 institutions process and deposit the funds directly to the
                                 Department of the Treasury reducing the processing time.
Master File                      The IRS database that stores various types of taxpayer
                                 account information. This database includes individual,
                                 business, and employee plans and exempt organizations
                                 data.
Over The Counter Network         A web-based application used by the IRS for depositing
(OTCnet)                         foreign payments that combines check capture and deposit
                                 reporting using electronic collection mechanisms instead
                                 of paper-based processing.
Source Documentation             A payment posting voucher or a taxpayer’s tax return
                                 containing taxpayer identifiable information, such as a
                                 TIN, and the date the IRS received the payment.
Submission Processing Center     IRS campuses that process tax returns.
(SPC)
Taxpayer Identification Number   A nine-digit number assigned to taxpayers for
(TIN)                            identification purposes. Depending upon the nature of the
                                 taxpayer, the TIN is an Employer Identification Number, a
                                 Social Security Number, or an Individual TIN.
Treasury Time Balance (TTB)      The amount of funds the U.S. Department of the Treasury
                                 has deposited with the Lockbox Depositary in a
                                 non–interest-bearing time account to compensate for
                                 financial services performed by a Lockbox Depositary.




                                                                                     Page 29
        Processing of Foreign Currency Check Payments
           Is Causing Unnecessary Taxpayer Burden



                                               Appendix VIII

Management’s Response to the Draft Report




                                                        Page 30
Processing of Foreign Currency Check Payments
   Is Causing Unnecessary Taxpayer Burden




                                                Page 31
Processing of Foreign Currency Check Payments
   Is Causing Unnecessary Taxpayer Burden




                                                Page 32
Processing of Foreign Currency Check Payments
   Is Causing Unnecessary Taxpayer Burden




                                                Page 33
Processing of Foreign Currency Check Payments
   Is Causing Unnecessary Taxpayer Burden




                                                Page 34
